CERTIFICATE OF SERVICE

I, Robert E. Toone, Assistant Attorney General,
hereby certify that one unbound copy of the foregoing
Brief in Opposition of the respondents in 19-1031,
Erin Capron, et al. v. Office of the Attorney General of
the Commonwealth of Massachusetts, et al., was sent
via First Class Mail to the U.S. Supreme Court, and
one copy was sent via e-mail to the following parties
listed below, this 18th day of May, 2020:

Paul D. Clement

Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004

(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

Leslie A. Benitez

Counsel of Record

GORDON REES SCULLY MANSUKHANI LLP
816 Congress Avenue, Suite 1510

Austin, TX 78701

(512) 391-0197

lbenitez@grsm.com

Counsel for Amicus Curiae Alliance for
International Exchange
Shay Dvoretzky

Counsel of Record

JONES DAY

51 Louisiana Ave., N.W.

Washington, D.C. 20001

(202) 879-3939
sdvoretzkv@jonesday.com

Counsel for Amicus Curiae Host Families

Mark S. Davies

Counsel of Record

ORRICK, HERRINGTON &SUTCLIFFE LLP
1152 15th Street NW Washington, DC 20005
(202)339-8400

mark. davies
Counsel for Amicus Curiae Current and Former
Au Pairs

 

All parties required to be served have been served.

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 18, 2020.

  

ROBERT E. TOONE

Assistant Attorney General
One Ashburton Place
Boston, MA 02108
robert.toone@mass.gov
(617) 963-2178
